                   luatzon


                       art




     NONDEPLOYABLE RESERVE COMPONENT PERSONNEL



Report Number 98-142                    June 1, 1998




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this evaluation report, contactthe Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the hxpector
 General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions for Future Audits or Evaluations

 To suggest ideas for or to request future audits or evaluations, contact the Planning
 and Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and
 requests can also be mailed to:          *

                     OAIG-AUD (ATI’N: APTS Audit Suggestions)                  _
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.h43L;
 or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acrouyms

GAO                  General Accounting Offrce
                            INSPECTOR     GENERAL
                            DEPARTMENT    DF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                         June 1,1998
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 ANDREADINESS
               COMMANDANT, MARINE CORPS
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENTANDCOMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENTOFTHEARMY
SUBJECT: Evaluation Report on Nondeployable Reserve Component Personnel
         (Report No. 98-142)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DODDirective 7650.3 requires that all unresolved issues be resolved promptly.
Comments from the Army Reserve Command, the Navy for the Marine Corps Reserve,
and the Air Force Res&e are responsive and no additional comments are required.
Comments from the Army National Guard and Air National Guard are partially
responsive. Therefore, we request the Army National Guard to provide comments on
Recommendation A. 1. and the Air National Guard to provide additional comments on
Recommendations A.2. and B.2. by July 31, 1998.
       We appreciate the courtesies extended to the evaluation staff. Questions
on the evaluation should be directed to Mr. Richard A. Brown at (703) 604-9483
(DSN 664-9483) (rbrown@dodig.osd.mil). See Appendix D for the report distribution.
The evaluation team members arc listed inside the back cover.



                                       Robert f Lieberman
                                     Assistant Inspector General
                                            for Auditing
                           Offke of the Inspector General, DOD
Report No. 98-142                                                          June 1,199S
   (FVojectNo. 7RB-3007)

                Nondeployable Reserve Component Personnel

                                  Executive Summary

Introduction.    Reserve forces are critical to the successful conduct of military
operations
        in wartime     and peacetime. These forces played a vital role in Operations
 Desert Shield and Desert Storm and in recent military operations, to include Bosnia. In
 1991, the Department of the Army Inspector General’s special assessment of
 Operations Desert Shield and Desert Storm mobilization indicated that dental and
medical limitations were responsible for more than 60 percent (approximately 8,000) of
nondeployable soldiers identified at mobilization stations. Soldiers were also
nondeployable due to shortfalls in family care plans. Those shortfalls caused units to
execute last minute personnel substitutions. In 1994, the General Accounting Office
reported that DODwas lax in overseeing the Services implementation of its medical and
physical fitness programs for reservists.
Evaluation Objective. The overall evaluation objective was to determine whether
adequate procedures were in place to identify and manage nondeployable Reserve
component personnel. We reviewed the adequacy of management control programs as
they applied to the overall objective for the Army Reserve, Army National Guard,
Air Force Reserve, Air National Guard, and Marine Corps Reserve. We will
separately review and report on the Naval Reserve.
Evaluation Results. Based on our evaluation of 51 Reserve units, we believe
management improvement and emphasis are needed to ensure full compliance with
DODpolicy.
        - The Reserve components reviewed lacked consistency in the application of
and adequate oversight of their family care plan processes. If family care plan
inadequacies continue to exist, readiness and deployability could be affected during a
full mobilization (Finding A).
        - Except for the Army National Guard, the Reserve components reviewed were
not meeting physical fitness standards and requirements. As a result, the Reserve
components could not ensure that all their members could adequately demonstrate
Service specific car&-respiratory endurance, muscular strength and endurance, and
whole body flexibility needed to successfully perform mission specific duties
(Finding B).
We identified material management control weaknesses in the identification of
applicable members and the validation of family care plans and annual physical fitness
testing of Reserve component members. See Appendix A for details on our review of
the management control program. Management controls over identification and
correction of dental and medical limitations were considered adequate. See
Appendix C for a discussion of action taken to improve access to dental care.
Sumxuary of Recommendations.We recommend that the Commander, U.S. Army
Reserve Command; the Director, Army National Guard; the Director, Air National
Guard; and the Commander, Marine Forces Reserve, identify applicable members,
establish procedures requiring completion of and review and validation of family care
plans, and establish family care plans as the subject of future inspections, evaluations,
or audits. We recommend that the Chief, Air Force Reserve and the Director, Air
National Guard assign responsibility for monitoring family care plans to either the
Military Personnel Flight Customer Service or to full-time support personnel. We also
recommend that the Chief, Air Force Reserve direct the Air Force Reserve Inspector
General to continue inspections of family care plans. In addition, we recommend that
the Commander, Marine Forces Reserve direct each unit to report annually to
Command Headquarters the number of members requiring family care plans; provide
date of completion and implementation of “R-Net” database; and establish review of
family care plans as a part of future inspections, evaluations, and audits. We
recommend that the Commander, U.S. Army Reserve Command, establish physical
fitness testing as the subject of future inspections, evaluations, and audits; the Director,
Air National Guard submit a request for variance with the Air Force Surgeon General;
and the Commandan t, Marine Corps, to require all Marines, regardless of age, to take
annual physical fitness tests.
Management Comments. The Army concurred with the recommendations. The
Army Reserve Command stated that revisions to the Standard Installation Division
Personnel System - U.S. Army Reserve, Center Level Application Software will ensure
identification of members requiring family care plans and monitoring of the plans.
Family care plans and physical fitness testing will be included in the Compliance
Assessment Program, items of interest for the FY 1999 internal review plans, and
considered for reporting as material management control weaknesses for FY 1998. The
Army National Guard stated that a memorandum will be issued to the states
reemphasizing the requirements of the family care plan. The Navy commenting for the
Marine Corps Reserve concurred with the recommendations, and indicated that major
subordinate commands of the Marine Forces Reserve will compile and monitor
electronic rosters of members in need of family care plans. A database supporting
family care plans will be established on the R-Net by July 1, 1998. Also, all Marines,
regardless of age, will be required to take an annual physical fitness test. The
Air Force Reserve Command concurred with the recommendations, and stated that
responsibility for monitoring family care plans will be assigned to full-time support
personnel; military personnel flights will perform annual staff assistance visits; and
family care plan processes will remain a special interest item for Air Force Reserve
Inspector General visits. The Air National Guard neither concurred nor nonconcurred,
but stated that enough family care plan oversight is in place at the unit level and that
command interest and renewed attention should sufficiently address the compliance
issues. As a corrective action, the Air National Guard will add the Dependent Care
Program as a special interest item to inspections and audits and will require units to
submit an annual report on the family care plan. The Air National Guard further stated
that it does not follow the Air Force policy on physical fitness testing because the
Air Force Surgeon General concurred with the Air National Guard Instruction on
physical fitness. See Part I for a discussion of management comments and Part III for
the complete text of the comments.

Evaluation Response. Management actions on family care plans and physical fitness
testing implemented by the Army Reserve Command, Marine Corps Reserve, and
Air Force Reserve Command are responsive to the intent of the recommendations and
no further comments are required. The Army National Guard comments are partially
responsive. They did not specifically address actions for identifying and reporting on
family care plans and action completion dates. The Air National Guard comments did
not specifically address action completion dates for identifying and reporting on family
care plans and for future administrative inspections, evaluations and audits, including
assignment of responsibility for monitoring family care plans. Further, the Air
National Guard did not request a variance in physical fitness testing from the U.S. Air
Force Surgeon General in accordance with Air Force policy. Therefore, we request
that the Army National Guard and Air National Guard provide additional comments in
response to the final report by July 3 1, 1998.
                                              ii
Table of Contents

Executive Summary                                        i

Part I - Evaluation Results
      Evaluation Background
      Evaluation Objective
      Finding A. Family Care Plans
      Findmg B. Physical Fitness Testing            1:

Part II - Additional Information
      Appendix A. Evaluation Process
        Scope
        Methodology                                 ii
        Management Control Program                  21
      Appendix B. Summary of Prior Coverage
      Appendix C. Selected Reserve Dental Program   ;
      Appendix D. F&port Distribution               26

Part III - Management Comments
      Department of the Army Comments
      Department of the Navy Comments
      Department of the Air Force Comments
      Air National Guard Comments
Part I - Evaluation Results
Evaluation Background

    Introduction. Reserve forces are critical to the successful conduct of military
    operations in both peacetime and wartime. The mission of the Reserve
    component of alI the Services is to provide trained, well-equipped individuals
    and units for active duty in time of national emergency or war or at such times
    as the national security requires. The Reserve components played a major role
    in Operations Desert Shield and Desert Storm and have been playing vital roles
    in recent military operations, to include Bosnia. In addition, Reserve forces are
    expected to play an increasingly important role in future military operations as
    DOD reduces the size of the Active Forces. About 780,000 Selected reservists
    and National Guardsmen arc in the Reserve components.

    The Army Reserve and the Army National Guard constitute the Reserve
    component of the Total Force of the Army. The Naval Reserve is the Reserve
    component for the Navy. The Marine Corps Reserve is the Reserve component
    of the Marine Corps. The Air Force Reserve and the Air National Guard
    constitute the Reserve component of the Air Force.

    History. In 1991, the Department of the Army Inspector General’s special
    assessment of Operations Desert Shield and Desert Storm mobilization indicated
    that the dental and medical limitations accounted for more than 60 percent
    (approximately 8,000) of nondeployable soldiers identified at mobilization
    stations. The inadequacy of Army family care plans also resulted in some
    nondeployable soldiers and caused last minute personnel substitutions. In 1994,
    the General Accounting Office (GAO) reported that DOD had been lax in
    overseeing the Services implementation of its medical and physical fitness
    programs for reservists. GAO recommended that the Under Secretary of
    Defense for Personnel and Readiness direct the Inspector Genera& DOD, to
    review management controls to ensure that fitness related problems are
    corrected. The Inspector General, DOD, received no request from the Under
    Secretary. However, knowing this was an agreed-upon requirement, the
    Inspector General, DOD, initiated the review.

     This report covers evaluation results for the Army Reserve, Army National
     Guard, Air Force Reserve, Air National Guard, and Marine Corps Reserve.
     We will separately review and report on the Naval Reserve procedures in
     identifying and managing nondeployable members.


Evaluation Objective

     The objective of the program evaluation was to determine whether adequate
     procedures were in place to identify and manage nondeployable Reserve
     component personnel. We also reviewed the adequacy of management control
     programs as they applied to the objective for the Army Reserve, Army National
     Guard, Air Force Reserve, Air National Guard, and Marine Corps Reserve.




                                        2
See Appendix A for a discussion of the scope, methodology, and management
control program coverage; Appendix B for a summary of prior coverage related
to the evaluation objective; and Appendix C for a discussion of action taken to
improve access to dental care.




                                   3
           Finding A. Family Care Plans
           The Reserve components (Army Reserve, Army National Guard,
           Air Force Reserve, Air National Guard, and Marine Corps Reserve)
           reviewed lacked consistency in the application of and the adequate
           oversight of their family care plan processes. The Reserve components
           zld;;;.l..y    com@ied with the DOD Family Care Plan policy to identify
                         reqmrmg f&y care plans and to ensure the adequacy of
           every member’s family care plan. In addition, except for the Air Force
           Reserve, the Reserve components had not placed command emphasis on
           monitoring family care plans. If family care plan inadequacies continue
           to exist, readiness and deployability could be affected during a full
           mobilization.

Guidance
    DOD Policy. DOD Instruction 1342.19, “Family Care Plans,” July 13, 1992,
    establishes policy, assigns responsibilities, and prescribes procedures on family
    care plans. The Instruction requires Military Departments to ensure that
    systems are in place to monitor family care plans within their respective
    Services. The Instruction also requires Military Departments to implement
    procedures to ensure that commanders, commander representatives, supervisors,
    or designated personnel within the Reserve components annually validate each
    member’s family care plan, review the adequacy of the plan, and ensure that the
    plan covers all reasonable contingencies.

    DOD Instruction 1342.19 requires all single parent members with custody of
    children and dual military couples with dependents, including members who
    otherwise bear sole responsibility for the care of children under the age of 19 or
    family members who are unable to care for themselves in the member’s
    absence, to initiate and maintain a family care plan. The family care plan
    ensures that covered family members receive adequate care, supervision, and
    support during the member’s absence.

    Commanders or supervisors have the primary responsibility to ensure that
    members who meet the criteria have an up-to-date family care plan. Members
    must submit the family care plan to their commander, the commander
    representative, or a supervisor for review. A family care plan must include
    arrangements for the financial well-being of family members covered by the
    family care plan during short- and long-term separations. Arrangements for
    finatzcial care must include powers of attorney, allotments, or other appropriate
    means to ensure the self-sufficiency and financial security of family members.
    A family care plan must also include a statement signed by the caregiver
    acknowledging and accepting responsibility for care of the member’s family and
    provisions for short- and long-term separations. Copies of powers of attorney
    prepared for the caregiver must be included with the statement signed by the
    caregiver. The member is responsible for providing the caregiver with the
    necessary documents, includmg powers of attorney and wills.


                                         4
                                                    Finding   A.   Family   Care Plans



    Army Policy. Army Regulation 600-20, “Army Personnel Command Policy,”
    Interim Change 104, September 17,1995, implements DODrequirements and
    provides guidance for mission, readiness, and deployability needs for Army
    active duty, Army Reserve, and Army National Guard. Members must
    implement family care plans during any periods of absence for annual training,
    regularly scheduled unit tmining assemblies, emergency mobilization and
    deployment, or other types of active duty.
    Air Force Policy. Air Force Instruction 36-2908, “Family Care Plans,”
    July 15, 1994, implements DODrequirements, establishes policy, assigns
    responsibilities, and outlines procedures governing family care plans. The
    Instruction applies to the Active Air Force, Air Force Reserve, Individual
    Ready Reserve, and Air National Guard. Air Force members must have family
    care arrangements that cover all reasonably foreseeable situations, both short-
    and long-term.
    Marine Corps Policy.    Marine Corps Chder 1740.13A, “Family Care Plans,”
    December 3,1993, implements DODrequirements and establishes policy and
    procedures for family care plans. The Order applies to active duty and Reserve
    members and requires provisions for all possible contingencies, both short- and
    long-term deployments or absences.


Meeting DOD Family Care Plan Requirements
    The Reserve components reviewed lacked consistency in the application of and
    the adequate oversight of their family care plan processes. The Reserve
    components had not fully complied with the DODFamily Care Plan policy to
    identify all members requiring family care plans and to ensure the adequacy of
    every member’s family care plan. In addition, except for the Air Force
    Reserve, the Reserve components had not placed command emphasis on
    monitoring family care plans. Specifically, the Army Reserve, Army National
    Guard, and Marine Corps Reserve did not have a system in place to identify all
    members requhiq family care plans and did not have accurate information in
    the family care plans. In addition, the Air Force Reserve and Air National
    Guard family care plans had incomplete and outdated information. Further, the
    Air National Guard had not fully complied with DODpolicy to identify all
    members requiring family care plans.


Army Reserve and Army National Guard
    The Army Reserve components (Army Reserve and Army National Guard)
    lacked consistency in the application of and the adequate oversight of their
    family care plan processes. Based on our evaluation of 16 units, the Army
    Reserve components had not fully complied with DODpolicy to identify all
Finding A. Family Care Plans



      members requiring family care plans and to ensure the adequacy of every
      member’s family care plan. In addition, the Army Reserve components had not
      placed command emphasis on monitoring family care plans.

      Identification of Members. The Army Reserve components lacked consistency
      in application because they did not have a system in place to identify all
      members mquhing family care plans. Both Active and Reserve components of
      the Army use the Standard Installation Division Personnel System to manage
      personnel-related information. However, the system was not engineered to
      track family care plans and no other system was in place to accomplish the
      required monitoring function. As a result, the Army Reserve components could
      not adequately identify members requiring family care plans. Consequently, the
      Army Reserve components could not ensure the adequacy of existing plans.

      Command Oversight of the Plans. The Army Reserve components lacked
      consistency in the adequate oversight of their family care plan processes. The
      Army Reserve Command Inspector General identified family care plans in its
      inspection checklist. However, neither the Inspectors General nor the Internal
      Review offices of the Reserve Regional Support command included family care
      plans in regularly scheduled oversight due, in part, to lack of command
      emphasis. When inspectors general conducted premobilization reviews, they
      found that family care plans ranged from marginally adequate to unsatisfactory.
      The Atmy National Guard Headquarters did not provide oversight of the Army
      National Guard units. A State Area Command review of the family care plans
      of the Army National Guard was performed in only 13 states.


Air Force Reserve and Air National Guard

      The Air Force Reserve and Air National Guard lacked consistency in the
      application of and the adequate oversight of their family care plan processes.
      Based on our evaluation of 25 units, the Air Force Reserve component members
      had incomplete and inaccurate family care plans. In addition, the Air National
      Guard had not fully complied with DOD policy to identify all members
      requiring family care plans. Further, the Air National Guard had not placed
      command emphasis on monitoring family care plans.

      Process of Reviewing and Validating Family Care Plans. The Air Force
      Reserve components lacked consistency in application because they did not have
      a standard process for monitoring family care plans. The level of thoroughness
      in reviewing and validating family care plans varied at the 17 Air Force Reserve
      units and the 8 Air National Guard units we visited. The reviews and
      validations of family care plans could be accomplished by either the unit
      commanders, first sergeants, Military Personnel Flight Customer Service, or
      full-time support personnel. Reviews and validations of family care plans by
      unit commanders or first sergeants, who faced time constraints associated with
      unit tmining assemblies, were not adequate in accordance with DOD and
      Air Force requirements. During their 2day unit training assemblies, unit
      commanders and first sergeants were involved with other assignments and

                                          6
                                                    Finding   A. Family Care Plans



    taskings, which made it diEcult for them to adequately review and validate
    family care plans. However, reviews and validations accomplished by the
    Military Personnel Flight Customer Service, which was staffed with full-time
    personnel who did not have time constraints, generally adequately identified
    members who had not completed family care plans; and they reviewed and
    validated the adequacy of family care plan requirements, such as powers of
    attorney, designated caregivers, etc.

    Identification of Members. The Air Force Reserve components lacked
    consistency in the identification of members requiring family care plans. The
    Air Force Reserve, because of command emphasis, ensured that all members
    mquhing family care plans were identified. The Air Force Reserve maintained
    and tracked family care plans that were to be completed or already completed
    by members. In July 1997, the Air Force Reserve reported that 4,041 Air
    Force Reserve members requimd family care plans. In comparison, the Air
    National Guard had not fully complied with DOD policy to identify all members
    requiring family care plans. As a result, the Air National Guard could neither
    ensure that all members requiring family care plans had completed a plan nor
    ensure the deployability of all its members.

    Command Oversight of the Plans. Commandemphasison monitoring family
    care plans varied by Air Force Reserve component. The Air Force Reserve
    placed emphasis on its family care program. The Air Force Reserve Inspector
    General had been performing itqections at a rate of one unit per month in an
    effort to ensure full compliance by all Air Force Reserve units. Following the
    completion of 23 wing or group inspections from October 1995 through October
     1997, the Air Force Reserve Inqector General reported that 10 wings or groups
    were not meeting satisfactorily the family care plan requirements. Satisfactory
    ratings were given to wings or groups that had all the required documentation
    for the family care plans, had no discrepancies, and contained accurate and
    up-to-date information. Satisfactory ratings were achieved by wings or groups
    in which the responsibility for monitoring family care plans were assigned to the
    Military Personnel Flight Customer Service or to full-time support personnel
    and not the unit commanders or first sergeants. The Air Force Reserve
    Inspector General found incomplete family care plans, expired powers of
    attorney, pow?rs of attorney that were not executed for all designees, and
    annual validatrons that were not performed. The Inspector General concluded
    that improvements in the validation process were still warranted. On the other
    hand, the Air National Guard had neither placed command emphasis on
    monitoring family care plans nor performed oversight of family care plans. As
    a result, the Air National Guard could not ensure the adequacy of its family care
    Pb.


Marine Corps Reserve

    The Marine Corps Reserve lacked consistency in the application of and the
    adequate oversight of its family care plan processes. Based on the evaluation of
    10 units, the Marine Corps Reserve did not have a uniform system in place to

                                        7
Finding    A. Family Care Plans



          identify members requiring family care plans and those whose plans contained
          inaccumte information. This occurred because the Marine Corps Reserve had
          not complied fully wi$the DOD Family Care Plan policy. In addition, the
          Marine Forces Reserve had not placed command emphasis on monitoring
          family care plans.

          Identification of Members. The reserve units reviewed lacked consistency in
          the application of the plan because the MarineForces Reserve did not have a
          system in place to identify members requiring family care plans. Also, the
          reserve units did not ensure the adequacy of each member’s family care plan.
          Of the 10 units we visited, 8 could not ascertain the number of members
          mquhing family care plans. Command@ officers depended solely on members
          to voluntarily initiate family care plans. However, at two units, commanding
          officers identified members requiring family care plans by interviewing all their
          unit members during the unit train@ assembly and determining who needed to
          prepare a plan. Further, the reserve units had not adequately validated family
          care plans. For example, at four sites we visited, we noted expired powers of
          attorney, non-review of powers of attorney for adequacy, and family care plans
          that were not being validated as correct by the member and the designated
          caregiver.

          Command Oversight of the Plans. The Marine Corps and the Marine Forces
          Reserve had not placed command emphasis on the oversight of family care plan
          processes. Marine Corps Order 1740.13A required the verification of family
          care plans to be included during the conduct of inspections. However, neither
          the Marine Corps Inspector General nor the Marine Forces Reserve Inspector
          had reviewed the family care plans.

          Command Corrective Action. As a result of our review, the Marine Forces
          Reserve initiated corrective action. It initiated the development of a database
          for family care plans on a wide area network, “R-Net,” to ensure the
          identification of members requiring family care plans and the validation of the
          plans. The Marine Forces Reserve Inspector had also initiated plans to review
          family care plans.


Future Deployability

          The Reserve components consist of about 780,000 members. Future
          deployability of some reservists, as demonstrated in Operations Desert Shield
          and Desert Storm, necessitates the timely establishment and maintenance of
          required family care plans. Except for the Air Force Reserve, the Reserve
          components we reviewed did not adequately identify members requiring family
          care plans or ensure that their members completed the required family care


          *The Marine Forces Reserve is the Headquarters command for the Marine
           Corps Reserve. It provides policy, guidance, direction, and support to Marine
           reservists and Reserve units.

                                              8
                                                     F’iuding A. Family Care Plans



    plans. We believe the Reserve components should establish a system to identify
    and,monitor family care plans. In addition, Reserve components should put in
    place oversight mechanisms to ensure compliance with DODand Service
    policies including annual reporting to command headquarters on unit
    compliance; thus, resulting in enhanced capability to meet future deployments.


Recommendations, Management Comments, and Evaluation
Response
    A.l. We recommend that the Commander, U.S. Army Reserve Command;
    Director, Army National Guard; and Director, Ah- National Guard:

            a. Establish procedures to identify all members meeting the criteria
    for a family care plan, ensure completion of a family care plan, and eusure
    annual review and validation of each member’s family care plan.

           b. Establish procedures requh-hg each unit to report annually to
    Command Headquarter the number of members requiring family care
    plans, the number of plans that are beii compkted,‘the number of plans
    that have been completed, and the number of family care plans reviewed
    and validated.

            c. Establish family care plans as a subject of future adminktrative
    inspections, evaluations, and audits to ensure compliance.

    Army Reserve Comman d Comments. The Army Reserve Command
    concurred, stating that adequate procedures for the identification of soldiers who
    are required to complete family care plans already exist in Army
    Regulation 600-20. It indicated that compliance with procedures is the
    responsibility of every commander and first sergeant and must remain at their
    level. It will remind commanders and .first sergeants of the importance of those
    responsibilities during the May 1998 U.S. Army Reserve Command General
    Officers and Command Sergeants Major Conference. It also stated that by
    April 30, 1998, results of a Command-wide review of family care plans
    including the total number of soldiers and the number of required family care
    plans, approved family care plans, and family care plans pending approval are
    to be reported. Additionally, by May 3 1, 1998, changes in system codes and
    related fields for family care plans entered in the Standard Installation Division
    Personnel System - U.S. Army Reserve, Center Level Application Software to
    enable continuous monitoring of family care plans will be completed. By
    June 30, 1998, guidance requiring the review and validation of family care
    plans during annual training, individual duty training “family days,” and
    mobilization exercises will be published. Finally, family care plans will be
    included in the Compliance Assessment Program by June 30, 1998, an item of
    interest for FY 1999 internal review plans, considered as a material
    management control weakness for FY 1998, and incorporated in the Army
    Reserve Command management control process beginning in FY 1999.


                                        9
Finding A. Family Care Plans



      Army National Guard Comments. The Army National Guard concurred,
      stating that adequate policies and procedures have been established and believed
      that the problems reported were due to a lack of implementation of policies and
      procedures. As a corrective action, the Army National Guard planned to issue a
      readiness memorandum to the states reemphasizing the implementation of family
      care plans during any period of absence for annual training, regularly scheduled
      unit training assemblies, emergency mobilization and deployment, or other
      types of active duty. Unit commanders will be required to report all
      nondeployable personnel on the quarterly unit status report. Family care plans
      will be an area for inspection within the Grganizational Inspection Program,
      conducted at least annually by the battalion level or higher. In addition, the
      Army National Guard will recommend that the state senior leadership consider
      the need to prepare and monitor family care plans as a potential auditable area
      for internal review to audit within the next 12 months.

      Air National Guard Comments. The Air National Guard neither concurred
      nor nonconcurred, stating that sufficient guidance is in place to ensure
      compliance with DOD Instruction 1342.19 and Aii Force Instruction 36-2908
      and that the problems reported are due to noncompliance with rather than lack
      of policy or guidance. As a corrective action, the Air National Guard stated
      that it will add the Dependent Care Program as a special interest item to
      inspections and audits. All units will be required to submit an annual family
      care plan report to the Headquarters Air National Guard Readiness Center
      Personnel Directorate. The report will include the number of members
      requiring family care plans, plans that are being completed, plans that have been
      completed, and plans that have been reviewed and validated.

      Evaluation Response. Comments from the Army National Guard and Air
      National Guard were partially responsive. For the Army National Guard, we
      request information on what actions are planned or taken to identify and report
      the number of members requiring family care plans, plans that are being
      completed, plans that have been completed, and plans that have been reviewed
      and validated and the action completion date. For the Air National Guard, we
      request completion dates for the reporting on family care plans and for future
      administrative inspections, evaluations, and audits to ensure compliance with the
      preparation and validation of the family care plans.

      A.2. We recommend that the Chief, Air Force Reserve and the Director,
      Air National Guard assign responsibility for monitoring family care plans
      to either the Military Personnel Flight Customer Service or to full-time
      support personnel to ensure that all applicable members complete a family
      care plan and to ensure adequate review and validation of the plans.

      Air Force Reserve Comments. The Air Force Reserve concurred, and stated
      that it would assign responsibility for monitoring family care plans to full-time
      support personnel to ensure all applicable members complete a family care plan
      and to ensure adequate review and validation of the plans. The Air Force
      Reserve Command will direct the military personnel flights to perform annual




                                          10
                                                 Finding   A. Family Care Plans



staff assistance visits to all units with members requiring family care plans, and
will require a !Sday followup on discrepancies found. The estimated
completion date for the above actions is October 1, 1998.

Air National Guard Comments. The Air National Guard neither concurred
nor nonconcurred. The Air National Guard stated that enough oversight is in
place at the unit level to ensure all applicable members complete a family care
plan and ensure adequate review and validation of the plans through the
responsibilities listed in Air Force Instruction 36-2908.

Evaluation Response. The Air National Guard comments did not specifically
address assignment of responsibility for monitoring family care plans to ensure
all applicable members complete a family care plan and ensure adequate review
and validation of the plans. We request that the Air National Guard provide
additional comments in response to the fina report.

A.3. We recommend that the Chief, Air Force Reserve direct the Air Force
Reserve Inspector General to continue inspections of family care plau
processes to ensure that Air Force Reserve units fully comply with the
po~w*
Air Force Reserve Comments. The Air Force Reserve concurred, and stated
that the Air Force Reserve Inspector General will be directed to continue
inspections of family care plan processes to ensure units fully comply with the
policy. The Air Force Reserve Command Family Care Plan Program will
remain a special interest item for Air Force Reserve Inspector General visits.

A.4. We recommend that the Commander, Marine Forces Reserve:

      a. Direct unit commanders to conduct interviews of all unit
members to ensure identification of members meeting the criteria and
completion of family care plans.

       b. Directeachunittocreatealocaldatabasetoensurethat
members requiring family care plans are tracked and family care plans are
maintained.

       c. Direct each unit to annually report to command headquarters the
number of members requiring family care plans and the number of family
care plans that have been completed including the number of family care
plans reviewed and validated.

       d. Provide the date of completion and implementation of the wide
area network, “R-Net,* including the processes and procedures for
monitoring family care plans.

      e. Establish family care plans as a subject of ongoing and future
admmistrative mspections, evahmtions, and audits to ensure compliance
with Marine Corps Order 1740.13A.



                                    11
Finding    A. Family Care Plans



          Navy Comments for the Mariue CorpsReserve. The Navy concurred, and
          stated that interviews of all Marine Corps Reserve unit members will be
          completed by October 1, 1998. Major subordinate commands of the Marine
          Forces Reserve and Force units will be directed to compile and monitor
          electronic rosters of all members in need of family care plans. On January 1,
          1999, reporting of the number of members requiring family care plans and the
          number of family care plans completed, including plans that have been reviewed
          and validated, will be implemented. The first reports are due March 31, 1999.
          In addition, a database supporting family care plans will be established on the
          R-Net by July 1, 1998. The inqection, evaluation, and audit of family care
          plans was incorporated into the Marine Forces Reserve inspector order on
          March 15, 1998.




                                             12
            Finding B. Physical Fitness Testing
           Except for the Army National Guard, the Reserve components reviewed
           were not meeting physical fitness standards and requirements. This
           occurred because the Reserve components had not adequately
           implemented and tested members in accordance with DOD and Service
           implementing guidance for physical fitness. In addition, the Army
           Reserve lacked uniform command emphasis. As a result, Reserve
           components could not ensure that all their members could adequately
           demonstrate Service-specific car&-respiratory endurance, muscular
           strength and endurance, and the whole body flexibility needed to
           successfully perform mission specific duties.


Guidance

    DOD Policy. The DOD policy on physical fitness and body fat is contained in
    DOD Directive 1308.1, ‘DOD Physical Fitness and Body Fat Program,”
    July 20, 1995. The policy states that physical fitness is essential to combat
    readiness. Individual Service members must possess the car&-respiratory
    endurance, muscular strength and endurance, and whole body flexibility to
    successfully perform in accordance with their Service-specific mission and
    military specialty. The policy requires each Service, Active and Reserve
    components, to establish its specific requirements and conduct the physical
    fitness training for its particular needs and mission. The policy also states that
    ali Service members, regardless of age, must be formally evaluated and tested
    for the record, at least annually.

    Army Policy. Physical fitness testing procedures are identified in Army
    Regulation 350-41, “Training in Units,” March 19, 1993. The Regulation
    states that the purpose of physical fitness testing is to give soldiers an incentive
    to stay in good physical condition and to allow commanders a means of
    assessing the generai fitness levels of their units. The Army’s implementing
    guidance is in Army Field Manual 21-20, “Physical Fitness Training,”
    September 30, 1992. The Army’s physical fitness train& program extends to
    all branches of the total Army, which includes the Army Reserves and Army
    National Guard.

    Air Force Policy. Air Force Policy Directive 40-5, “Fitness and Weight
    Management,” May 20, 1994, establishes policy to promote good physical
    condition to increase force readiness. Air Force Instruction 40-501, “The
    Air Force Fitness Program, mFebruary 1, 1996, implements Air Force Policy
    Directive 40-5 and the physical requirements of DOD Directive 1308.1. The
    Instruction applies to all Air Force members.

    Air National Guard Policy. Air National Guard Instruction 40-501, “Air
    National Guard Fitness Program,” October 10, 1996, outlines the Air National
    Guard fitness program, as required by DOD Directive 1308.1.


                                          13
Finding    B. Physical Pitness Testing



          Marine Corps Policy. Marine Corps Order 6100.3J, uPhysical Fitness
          Testing, WFebruary 29, 1988, establishes policy and implementing instructions
          concerning physical fitness.


Meeting DOD Requirements
          Except for the Army National Guard, the Reserve components reviewed were
          not meeting physical fitness standards and requirements. This occurmd because
          the Reserve components had not adequately implemented and tested members in
          accordance with DODand Service implementing guidance for physical fitness.
          Specifically, the Army Reserve failed to uniformly implement Army physical
          fitness standards. In addition, the Air Force Reserve failed to meet DODand
          Air Force requirements for annual physical fitness testing. Further, the Air
          National Guard did not follow Air Force policy on physical fitness testing.
          Moreover, the Marine Corps Reserve did not meet the DODannual physical
          fitness testing requirement because it exempted members who were 46 or older.


Army        Reserve and Army National Guard
          The Army Reserve components we visited were not consistent in the
          implementation and physical fitness testing of members. Five of the eight Army
          Reserve units visited were not meeting physical fitness sta&rds and
          requirements. This occurmd because the Army Reserve lacked command
          emphasis and had not adequately implemented and tested members in
          accordance with DODand Army implementing guidance for physical fitness. In
          contrast, all eight Army National Guard units we visited met and sometimes
          exceeded standards.
          The Army Reserve lacked uniform command emphasis and had not adequately
          implemented and tested members in accordance with DODand U.S. Army
          implementing guidance for physical fitness. The degree of thoroughness in
          implementing Army physical fitness standards was directly attributed to the
          mission of the unit and a commander’s prerogative. At eight Army Reserve
          units, we noted varying degrees of thoroughness in meeting the Army’s physical
          fitness standards. At two units, test scores could have been entered in error
          because not enough personnel were assigned to oversee the testing. At two
          other units, test scores had been recorded for individuals who had not taken the
          test. Further, at another unit visited, the previous commander had not required
          that annual testing be accomplished. However, at eight Army National Guard
          units, the Army physical fitness star&rds were thoroughly implemented. The
          Army National Guard units met and sometimes exceeded the physical fitness
          Standards.




                                             14
                                               Finding B. PhysicallGtmss Testing




Air Force Reserve and Air National Guard

    The Air Force Reserve and Air National Guard units reviewed were not meeting
    physical fitness standards and requirements. This occurred because the Air
    Force Reserve and Air National Guard had not adequately implemented and
    tested members in accordance with DOD and Service implementing guidance for
    physical fitness. Specifically, the Air Force Reserve failed to meet DOD and
    Air Force requirements for annual physical fitness testing. In addition, the Air
    National Guard did not follow Air Force policy on physical fitness testing.
    Air Force Instruction 40-501 requires that physical fitness of each Air Force
    member, active duty; Air Force Reserve; and Air National Guard, be assessed
    by using cycle ergometry (a computerized stationary bicycle) annually.

    Air Force Reserve. The 17 Air Force Reserve units we reviewed failed to
    meet DoD and Air Force requirements for annual physical fitness testing.
    Because of resource and time constraints, the exclusive use of cycle ergometry
    resulted in the Air Force Reserve conducting physical fitness testing every
    2 years rather than annually as required by DOD and Air Force policy. In April
    1996, the Air Force Reserve changed the frequency of testing from every
    2 years to every 5 years for nonflyers and every 3 years for flyers. The intent
    of the Air Force Reserve was to combine the physical Bness testing with the
    medical examina tion requirements. However, its action did not meet the DOD
    and Air Force requirement for annual physical fitness testing.

    As a result of our review, the Air Force Reserve requested approval for a
    variance in testing physical fitness. On July 11, 1997, the U.S. Air Force
    Surgeon General authorized the Air Force Reserve to test unit members by
    utihxing either the cycle ergometry or by completing a timed 3-mile walk. The
    time limits varied with the age and sex of each member. All unit members who
    failed or had not taken the cycle ergometry test in 1997 and who could safely
    complete annual physical fitness testing, were requked to complete fitness
    testing no later than December 31, 1997. After December 1997, the fitness
    testing was to become an annual requirement so as to meet Service specific
    card&respiratory endurance, muscular strength and endurance, and whole body
    flexibility requirements in accordance with DOD policy.

    Air National Guard. The eight Air National Guard units we reviewed were
    not following Air Force policy on the use of cycle ergometry for its annual
    physical fitness testing. Instead, the Air National Guard used either the cycle
    ergometry test, a timed 1.5mile run, or a 3-mile walk to meet its annual
    physical fitness testing requirement. The Air National Guard did not use cycle
    ergometry as an exclusive method for testing physical fitness due to multiple
    constraints. The constraints in&&d the time required to administer the test,
    cost of equipment and manpower, and the nonsuitability of the cycle ergometry
    method for testing large populations.

    In accordance with Air Force policy, alternative test methods must be approved
    by the U.S. Air Force Surgeon General. The Air National Guard had not
    requested approval to use the run or walk for its physical fitness testing. They


                                       15
Finding B. Physical Fitness Testing



      planned to continue to use the run or walk method of testing its personnel, and
      as such, needed to request a variance to the armual cycle ergometry testing
      through the U.S. Air Force Surgeon General.


Marine Corps Reserve

      The 10 Marine Corps Reserve units we reviewed were not meeting DOD
      physical fitness standards and requirements because of an age exemption.
      Marine Corps Order 6100.3J, did not comply with the DODrequirement for
      annual physical fitness testing regardless of age. The Order contained an
      exemption from physical fitness testing for Marines who were 46 or older. As
      of December 12, 1997, 1,646 (5 percent) Reserve members were 46 or older.
      The standard physical fitness testing consists of three events. For males, the
      events are the pull-up or chin-up, bent-knee sit-up, and a timed 3-mile run. For
      females, the events are the flexed-arm hang, bent-knee sit-up, and a timed
      1.5mile run.
      As a result of our review, the Marine Corps agreed to implement corrective
      action and reissue its testing policy. The revised Order will require all Marines,
      regardless of age, to be evaluated and tested annually.


Physical Endurance

      Except for the Army National Guard, the Reserve components we reviewed
      could not ensure that all their members could adequately demonstrate Service-
      specific cardio-respiratory endurance, muscular strength and endurance, and
      whole body flexibility needed to successfully perform mission specific duties.
      We believe that the Reserve components should put in place oversight
      mechanisms to ensure compliance with DODand Service policies. In addition,
      to ensure consistency in application, the Army Reserve should make physical
      fitness testing the subject of future inspections, evaluations, and audits.


Recommendations, Management Comments, and Evaluation
Response

      B.l. We recommend that the Commander, U.S. Army Reserve Command,
      perform inspections, evaluations, and audits of its physical fitness program
      to ensure uniform and consistent application of physical fitness standards.
      Army Reserve Command Comments. The Army Reserve Command
      concurred, and stated that the importance of conducting uniform and consistent
      Army physical fitness testing will be emphasized during the May 1998
      U.S. Army Reserve Command General Officers and Command Sergeants Major

                                          16
                                            Finding B. Physical Fitness Testing



Conference. The Readiness Command will be required to include physical
fitness testing in the Compliance Assessment Program to ensure all units
properly comply with the Army requirements. Physical fitness testing will
become an item of interest for the FY 1999 internal review plans, considered
for reporting as a material management control weakness for FY 1998, and
incorporated into the Atmy Reserve Command management control process
beginning in FY 1999.

B.2. We recommend that the Director, Air National Guard, prepare and
submit to the U.S. Air Force Surgeon General a request for variance in
physical fitness testing to either use the cycle ergometry or complete a timed
1 S-mile run or 3-mile walk.

Air National Guard Comments. The Air National Guard neither concurred
nor nonconcurred, stating that it does not follow the Air Force policy on
physical fitness testing because the Air Force Surgeon General concurred with
Air National Guard Instruction 40-501. The Air National Guard stated that
before publication of its Instruction it briefed the Surgeon General and his staff
on the results of a pilot test that determined cycle ergometry testing was too
resource intensive and not feasible. Further, a total force integrated product
team met to discuss an appropriate fitness test for the reserve components. The
Air National Guard stated that in March 1998, the Air Force Surgeon General
approved a Rockport l-mile walk pilot test, to include one each, active duty;
guard; and reserve unit. A proposal for deployment of the pilot test is
scheduled for May 1998.

Evaluation Response. Comments from the Air National Guard are not fully
responsive. While the U.S. Air Force Surgeon General is aware of the pilot
test, we believe that the recommendation is still valid because no specific
variance was requested, granted and documented in accordance with Air Force
policy. Therefore, if it plans to continue using the run or walk method of
testing its personnel, the Air National Guard should request a variance to the
annual cycle ergometry testing through the U.S. Air Force Surgeon General.
We request that the Air National Guard provide additional comments in
response to the fti report.

B.3. We recommend that the Commandant, Marine Corps, revise Marine
Corps Order 6100.35, “Physical Fitness Testing,” February 29, 1988, to
require all Marines, regardless of age, to take annual physical fitness tests.

Navy Comments for the Marine Corps Reserve. The Navy concurred and
stated that effective July 1, 1998, all Marines, regardless of age, will be
required to take an annual physical fitness test.




                                    17
Part II - Additional Information
Appendix A. Evaluation Process


Scope

    We reviewed the processes and analyzed corresponding DOD and Service
    regulations and instructions used by the Army Reserve Command, Army
    National Guard, Air Force Reserve, Air National Guard, and Marine Corps
    Reserve to identify and manage nondeployable Reserve component personnel.
    Specifically, we evaluated the Reserve components’ 19% and 1997 policies and
    procedures on family care pla+ physical fitness testing, dental and medical
    programs, and key employees.


Methodology

    In the survey phase, we judgmentally selected units from each of the Reserve
    components. We visited three Army Reserve units, three Army National Guard
    units, four Air Force Reserve wings and four assigned units, two Air National
    Guard units, two Naval Reserve units, and five Marine Corps Reserve units.
    We interviewed responsible offXals, examined records, collected and analyzed
    FYs 1996 and 1997 data pertaining to family care plans, physical fitness test
    scores, dental and medical program, and key employees. We found no
    problems with key employees and therefore, did not include them during the
    verification phase of the evaluation.

    During the verification phase, we developed a questionnaire to gather
    infotmation on family care plans, physical fitness testing, and dental and
    medical programs. We sent the questionnaire to units that had deployed
    between FYs 1995 and 1997 and those that were targeted to deploy between
    August and November 1997. Based on our analyses of the responses to the
    questionnaire, we identified and visited responsible officials at 5 Army Reserve,
    5 Army National Guard, 6 Air Force Reserve wings and 13 assigned units,
    6 Air National Guard units, and 5 Marine Corps Reserve units. We reviewed
    FYs 1996 and 1997 records of family care plans, physical fitness tests, dental
    and medical programs, and collected pertinent data. See Appendix C for a
    discussion of action taken to improve access to dental care.

    We will separately review and report on the Naval Reserve procedures in
    identifying and managing nondeployable members.



    *A key employee is one who occupies a position that cannot be vacated during a
     national emergency or mobilization without seriously impairing the capability
     of an organization to function effectively.

                                        20
                                                  Appendix A. Evaluation Process



    Use of Computer-Processed Data. We did not rely on computer-processed
    data and did not use statistical sampling to achieve the evaluation objective.
    Evaluation Type, Dates, and Standards. We performed this program
    evaluation from May through December 1997 in accordance with standards
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.
    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within the DOD. Further details are available upon request.


Management Control Program
    DODDirective 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DODorganizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of those controls.
    Scope of Review of Management Control Program. We reviewed the
    adequacy of management controls at the Reserve components as they related to
    the management of nondeployable reservists. Specifically, we reviewed
    management controls over family care plan, physical fitness, dental and medical
    programs, and key employees. We reviewed management’s self-evaluation
    applicable to those controls.
    Adequacy of Management Controls. We considered management controls
    over the identification and correction of dental and medical limitations and
    management of key employees adequate. See Appendix C for a discussion of
    action taken to improve access to dental care. However, we identified material
    management control weaknesses for all the Reserve components as defmed by
    DOD Directive 5010.38. The Reserve components had not complied with
    established DODfamily care plan procedures. The management controls over
    family care plans were not adequate to ensure the completion, review, and
    validation of family care plans. Further, except for the Army National Guard,
    the Reserve components had not complied with established procedures on
    physical fitness testing. Recommendations in this report, if implemented, will
    correct the material weaknesses. A copy of the report will be provided to the
    senior official responsible for management controls in the Army Reserve, Army
    National Guard, Air Force Reserve, Air National Guard, and Marine Corps
    Reserve.
    Adequacy of Management’s self-Evaluation.         The Reserve components did
    not identify family care plans and physical fitness testing as assessable units
    and, therefore, did not identify the material management control weaknesses
    identified by the evaluation.




                                       21
Appendix B. Summary of Prior Coverage

  [eraI Accounting Of&e
   GAO Report No. NSIAD-94-36, (OSD Case No. 9576), %ESERVE
   FORCES: DOD Policies Do Not Ensure That Personnel Meet Medical and
   Physical Fitness Standards,” March 1994. The report discusses the adequacy
   of DODand Service medical retention policies and practices for reservists., .
   physical fitness test results as a measure of reservists’ preparedness for mrhtary
   missions, and management controls to ensure the achievement of fitness
   program objectives. GAO recommended that the Secretary of Defense revise
   the DODphysical fitness policy to require reservists to be medically able to
   deploy worldwide; direct the Services to adopt mission specific physical fitness
   testing programs; improve controls over physical f%nesstesting and reporting;
   and direct the Inspector General, DOD, to confirm that adequate management
   controls had been established to correct fitness-related problems identified in the
   report. DODagreed with the report’s overall findings and agreed to separate
   personnel who repeatedly fail physical fitness tests, implement controls to
   prevent fitness test scores from being inappropriately changed, and direct the
   Inspector General to assess whether adequate management controls had been
   established.
   GAO Report No. NSIAD-92-208, (OSD Case No. 9083), uOPERATION
   DESERT STORM: War Highlights Need to Address Problem of
   Nondeployable Perso~el,” August 1992. The report states that the number
   of nondeployable personnel in both the Active and the Reserve Forces is
   unintentionally masked by the force selection, mobilization, and packaging
   efforts and helps to screen for and substitute personnel to avoid nondeployability
   problems. Some Reserve units screen their personnel at home stations so
   nondeployables do not report to mobilization stations, whereas other units do
   not screen their personnel. GAO recommended that the Secretary of Defense
   provide additional policy guidance and emphasis, as needed, to require the
   Services to identify the magnitude of temporary and permanent nondeployable
   personnel in both Active and Reserve Forces; and strengthen the Status of
   Resources and Training System to require the Services to more fully reflect the
   impact of temporary and long-term nondeployable personnel, both Active and
   Reserve in their reports. DODconcurred with the GAO principal findings.
   DODrevised its family care planning guidance, conducted a review of retention
   and deployability criteria, and rewrote supporting personnel plans for
   contingencies,
   GAO Report No. NSIAD-92-67, (OSD Case No. 8919), uOPERATION
   DESERT STORM: Army Had Difficulty Providing Adequate Active and
   Reserve Support Forces,” March 1992. The report states that many units are
   not authorized to have all of their required wartime personnel in peacetime. In
   addition, GAO found that units contain personnel unable to deploy because they
   did not complete initial training, have medical problems, or cannot meet other
                                       22
                                        Appendix B. Summary of Prior Coverage



    deployment criteria. To assist Congress in analyzing the DODproposed
    legislative changes to the President’s Selected Reserve call-up authority
    (Title 10 United States Code, Section 673b [lo U.S.C. 673b]), GAO
    recommended that the Secretary of Defense supplement proposed legislative
    changes with information clearly identifying the specific obstacles encountered
    by each Service in selecting and mobilizing Reserves under 10 U.S.C. 673b and
    the specific actions DODand the Services can take to mitigate those difficulties
    that do not require legislative changes. The DODresponse to the final report
    indicated that the means of reducing personnel shortages in early deploying units
    would be examined and assured access to trained manpower consistent with
    10 U.S.C. 673b to meet personnel needs. In addition, DODwould examine a
    range of potential improvements to the Status of Readiness and Training
    System, in&ding the adoption of performance-based measures within the
    tmining portions of the current system.
    GAO Report No. NSIAD-91-263, (OSD Case No. 8769), “NATIONAL
    GUARD: Peacetime Training Did Not Adequately Prepare Combat
    Brigades For Gulf War,” September 1991. The reportstates that medical
    screening at the mobilization stations identifies numerous problems that impair
    soldiers’ ability to deploy, inchuiing chronic asthma, dental problems, diabetes,
    hepatitis, seizures, spinal arthritis, and ulcers. GAO recommended that the
    Secretary of the Army revise National Guard medical screening policies and
    procedures to provide screening of round-out brigade personnel at age 40, and
    explore alternatives to identify and correct serious dental ailments of round-out
    brigade personnel. DoD generally concurred with the GAO recommendations
    and stated that the Army was changing its regulations, developing validation
    procedures, and studying the subject of dental problems in the Army Reserve
    component.


Department of the Army Inspector General

    Department of the Army Inspector General Report, uSpecial Assessment of
    Operation Desert Sbield/Storm,n December 1991, statesthat nondeployable
    soldiers disrupt mobilization and cause units to undergo extensive cross-leveling
    (extensive use of lower ranking enlisted soldiers filling Non-Commissioned
    Officer positions, particularly drill sergeant positions). Dental and medical
    limitations account for more than 60 percent (approximately 8,000) of
    nondeployable soldiers at mobilization stations. Initial demobiliition visits
    found no evidence of follow-up action to preclude permanently nondeployable
    soldiers from rejoining units at home station. Differences between
    mobilization, deployability, and retention stamkds remain problems. The
    Army Inspector General suggested corrective actions in the areas of family
    support programs and dental and medical programs. The corrective actions arc
    intended to improve the overall pre-mobilization plamring and screening.




                                       23
Appendix C. Selected Reserve Dental Program
   ‘I’RICAREDental Program. The DODhas taken a positive step in assisting
   the Reserve components in managing dental health screening. Reservists dental
   health is an important factor in determining readiness for deployment. During
   the Persian Gulf War dental and medical limitations accounted for up to
   60 percent (approximately 8,000) of reservists being nondeployable. The 1996
   National Defense Authorization Act directed the establishment of a dental
   insurance program for members of the Selected Reserve of the Uniformed
   Services, titled the TRICARE Selected Reserve Dental Program (the Dental
   Program). Surveys showed that approximately 40 percent of the reservists and
   National Guardsmen did not have dental benefits due to the cost. On June 27,
   1997, DODawarded Humana Military Healthcare Services, Inc., the contract to
   administer the Dental Program. Effective Gctober 1,1997, the Assistant
   Secretary of Defense (Reserve Affairs), working in conjunction with Humana,
   began offering the newly available Dental Program to members of the Selected
   Reserve and National Guard. The only other criteria is that eligible Selected
   reservists’ and National Guardsmen*must have at least 1 year of commitment
   remaining.
   Selected reservists and National Guardsmen who elect the Dental Program must
   pay 4 months of premiums up front to enroll, and thereafter, have their share of
   the overall monthly premium automatically withheld from their monthly drill
   pay. The premiums cover routine diagnostic and preventive services, such as
   cleanings and X-rays and emergency services for mouth injuries or severe pain.
   Enrollees are responsible for co-payments for restorative services, such as
   fillings, temporary crowns, tooth extractions, and root removals. Root canals
   and permanent crowns are not included as benefits.
   Resourcing for the Program. There arc about 780,000 Selected reservists and
   National Guardsmen eligible for the voluntary dental plan. Premiums for the
   Dental Program are set at $4.36 a month for the fmt year and cover up to
   $1,000 of dental work annually. The Government’s share is $6.53 a month or
   60 percent of the total cost of the premiums. The DODAppropriations Act for
   FY 1997 provided $7.5 million to the Defense Health Program for the Dental
   Program. Any unused funds are allowed to be carried over into FY 1998. In
   addition, the Defense Health Program has $10 million targeted in FY 1998 for
   the Dental Program. To support the Dental Program, DODhas programmed
   $34 million to $40 million each year in FYs 1999 through 2003.
   Enrollment of Reservists. DODanticipated the enrollment, for the first year,
   to be approximately 25 percent or 195,000 Selected reserve and National

   Selected reservists consists of Reserve unit members within the Ready Reserve
    who are essential to wartime missions and includes full-time support personnel
    and individual mobilization augmentees.
   2NationalGuardsmen includes Army National Guard and the Air National
    Guard.

                                      24
                             Appendix C. Selected Reserve Dental Program



Guardsmen. The Office of the Assistant Secretary of Defense (Reserve Affairs)
stated that there were 19,000 applications as of November 30, 1997, with
12,CKKIapproved and enrolled. A marketing strategy is being developed to
increase enrollment in the Dental Program. Because the Dental Program is
relatively new, its overall effectiveness is not yet readily measurable.




                                  25
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (ProgramBudget)
Under Secretary of Defense (Personnel and Readiness)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Reserve Affairs)
Director, Defense Logistics Studies Information Exchange

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Commander, Army Reserve Command
Chief, National Guard Fhreau
  Chief, Internal Review and Audit Compliance

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Director, U.S. Naval Reserve

Marine Corps
Commandant of the Marine Corps
Commander, Marine Forces Reserve

Department of the Air Force
Assistant Secretary of the Air Force (Finaucial Management and Comptroller)
Auditor General, Department of the Air Force
Chief, Air Force Reserve




                                         26
                                                       Appendix D. Report Distribution



Unified Commands
Commander    in   Chief,   U.S.   European Command
Commander    in   Chief,   U.S.   Pacific Command
Commander    in   Chief,   U.S.   Atlantic Command
Commander    in   Chief,   U.S.   Southern Command
Commander    in   Chief,   U.S.   Central Command
Commander    in   Chief,   U.S.   Space Command
Commander    in   Chief,   U.S.   Special Operations Command
Commander    in   Chief,   U.S.   Transportation Command
Commander    in   Chief,   U.S.   Strategic Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Jnspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Jnformation Center
   Health, Education, and Human Services Division

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, Jntemational Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                              27
Part III - Management Comments
Department of the Army Comments



     DAPE-ZD (SAAG-PM0Ul8 Mar 98) (36-2b) 1st End COL Youngquist
     (703) 614-3367
     SUEUEtX Evaluation Report on N~ndeployable Reserve Component Personnel (Project
     No. 7RB-3007) - FtEASSICiNMENT OF HQDA PRINCIPAL OFFICIAL


     HQDA @APE-ZD), Wtingtun,           DC 20310-0300               2 2 IPR Hi@


                                                                                 , Acting FDASA(I4CRA)

     FOR hspcctor Gtnaal, w           of Defense, AT-IN: Logistics Support Diioratc,
           400 hy   Navy Drive, Arlingtoq VA 22202-2884


     1. The report, subjw as above, rccommaujs the Army National Guard (ARNG) and
     U.S. Army Rcscwe (USAR) improve managuncllt and incrcnsc cmpbasii on the hnily
     care plan process. Fuhcrmorc, it recommends the USAR improve physical fitness
     standah and mquiremalts. The Army concurs with the recommendations. specifc
     commen6 on each finding and anticipated corrective a&ms by the ARNG and WAR
     are dcscribal below.

     2. ARNG family care plans:

     DoDlG Rocommc&tion: The ARNG establish procedures to identify members needing
     a family care plan, ensure completion, establish mvicw and validation procedures,
     establish anmul reporting proceduws, and ensure compliance.

     ARNG Response: Concur. The following actions will be takcnz

        a. Ensure ARNG manbcrs implement family care plans during periods of absawe for
     annual training, regularly scheduled unit training asscmbks. emergency mobilization,
     and deployment or other types of ective duty.

        b. Reinforce instwtions,   pmccdu~~, and neuswy     forms per AR 600-20.

       c. Require unit commanders to rrport all nondeployable personnel on tkir quarterly
     Unit Status Report.

        d. Require all commanders to have currrnt and complete family care plans on file for
     each soldier identifti during Phase 1 planning of mobilization.

       e. Requhe review of family care plans be an inspectable area within the
     Organizational Inspection Program w least atmually.
                                                3




                                                  30
                                                        Departmentof the Army Comments




DAPE-ZD
SUBJECT: Evaluation Repott on Nondeploylble Reserve Component Personnel (Ptuject
No. 7RB-3007) -REASSIGNMENT OF HQDA PRMCIPAL.OFFICIAL


f. Recommend that over the next 12 months. the state senior leadership make preparing
and monitoring fhnily cm plans an u&able area for Intental Review.

3. USAR family care plans:

DoDIG -on:                Establish proceduresto iden@ all members meeting the
criterinfotafamitycarrplm.cluurrc4mpleti~ofa~lyarrp~~enrurr~
twkw aad validation of each member’s fkmily care plan.

USAR Reqmnse: Concur. We believe edqo8te w                    for the identihxtion of
soldiers who arc required to complete !hily care plans already exist in AR 600-20,
Chaoge2,dated 1 Apr92. Compiianccwithtbe5epoccdumistbcrcqmnsibilityof
everyconmu&rudfintsergemtt.           Monitotiagandcnforcanaltof~ycarepl8ns
must remain at their level. We till remind tkm of the importance ofthese
responsibilities dtning the May 98 USARC General Ofkus (GO) und Command
Sergants Major (CM) Goof’.           Also, by 30 Jtut 98, guiSnn will be published
requiring the review sod validation of family care plans during annual training, individual
duty training %mily days.” and mobilization cxacise~

DoMG -on:                  Establii paoceduw requiring eadt unit to mport anmmlly to
Command Headquartem the number ofmembers requiring family B plaos. the number
of plans that are being complctcd, the numba of plans th81have been completed a!xl the
numberof family care plans rwiewd and validated.

USAR Response: Concur. On 7 Jan 98. the USARC Deputy Commanding Genual
(DCG) directed an USARC-wide family oe plan review. Subordinate commanders to
the lowest level were required to review and validate needed family care plans for their
soldiers. Results of the review ate to be rqorted by 30 Apr 98. ‘Ihe tepon will include
the following: total numberof soldiers, number of required family care plans, number of
approved family care plans. and number of family care plans pendin approval. In
addition. new fimily care plan related fdd changes to SlDPERSUSRKLAS were made
available to the unit level during Apr 98. These changes telate to the following fields:
lknily care plan code, family crux plan date: single parent indicator, SSN of military
spouse. sod military service of spouse. Completion of these fields is targeted to be input
into the system by 3 I May 98. We will monitor the information in these fields on a
continual basis instead of the recommeokd allntlalreportiogtcquirement.

DoDlG Recommendation: Establish httily care plans as a subject of finttre
administrative inspecti- evaluotio~ and audits to ensure compliance.
                                        4




                                              31
Department of the Army Comments




        DAPE-ZD
        SUBJECT: Evaluation Report on Nondeployable Reserve Component Personnel (Project
        No. 7128-3007) - REASSIGNMENT OF HQDA PRINCIPAL OFFICIAL


        USAR Responw Concur. The USAR Readinw Commaml (USARRC) will bc
        dkcted, by 30 Jon 98, to make sure family care plans are included in tbeii Compliance
        Assessment Program (CAP) to ensum ail units are complying with family care plan
        requirements. In addition, family care plans wre discussed at the Apr 98 USARC IR
        Professional -t            Conference (PDC), and will be made an item of interest for
        FY99 IR plaus. Fiily, family cart plans will be consideredfixrqmting us a material
        managanau control weabess (MW) for FY98, and will be incoqomted into the
        USARC’s M magemcnt Control Process (MC) beginning with FY99.

        4. usARphysical    fitIle.5stesting:

        DoDIG Recommeodation: That the Comma&r, USARC. perform inspections,
        evaluations. and audits of its physical fitnss program to ensure unifom and consistent
        application of physical fitness standards.

        USAR Response: Concur. The impmance of conducting uniform snd consistcut APFT
        will be emphasii    during tk May 98 USARC Go and CSM Conferaxe. In addition,
        by 30 Jon 98. the USARRC will bc directed to make sum APFT reviews are inch&d in
        their CAP to easurc all units are properly complying with APFT requirements. Also,
        APFT was discussed at the Apr 98 USARC IR PDC. and will be made an item of interest
        for FY99 IR plans. Finally, APFT will be considered for wing      as a MW for FY98,
        and will be incorporated into the USARC’s MCP begioning with FY99.

        5. The HQDA point of contact is COL Youngguist, 614-3367.




                                                 I
                                                  ..
                                                 IW           LLRATH
                                                     Lieutenant General, GS
                                                     Deputy Chief of steff
                                                        for Personnel

        CF:
        OCAR. ATTN: DAAR-PE (LTC WestmoreIaod)
        NGB, ATM: NGB-ARC-M (Ms. Condon)
        SAAG-PMO-L (Ms. Rinderknecht)




                                                     32
                                                    Departmentof the Army Comments




HD#ORAMDtlHFOR Coaundu,           U.S.    Army ?orcw        Conmd,
                 &zTw:          Ass-a

suxJscr:  D8putnnt   of D8fon88 Inrp8CtOr Guta    Dr8ft
Sv8l\ution Report on Yondoploy8bl0RoHm     Co8pwunthr8onnel,
Projout No. 7~4007,   Fobmary 27, 1999


1.    Dur   ocBm8nt8     to 8ubjact   r8part      8ro ulclo8od.
2.    If you hwa        any quutlonm  or mod lidltional fnfoxmtion,
contact     Hr.   John ?rica   8t 464-8183, Or Ibr. tr8nk my08 8t MI-
9192.




                                              Diractor, Interma Rovhvud
                                                mnagoa4nt control8

C?:
Chimf,  AIlYm88YV*,       A=:         ---
Chi8f,  m     R888rv8,ATml:           OAU-WD
IQ, USARC,   mrM:     Dcson
HQ, USARC,   mm:      DcSPBl
XQ, usme,         Am:     IO




                                         33
Department    of the Army Comments




                           U.S. my          n8aerva   Colund     UJSARCI Reply
                                   DODIG Draft Eveluation Report
                     Nondeployable Reaortn Component (M)                  Personnel
                                  Project     MO. lRb-3007,     27 Tab 98


                                   rWI#G       A - -fly        care   P~ULS




                   The Xlmmcrvmcomponenta (Army Reserve, &my t66tioo61
             Guard. Air Toree Rmarrve, Air Yatioml Guud, and Burina
             Corps   Rmarmb    reviwmd  lacked corraiataney in the
             application    of and the adequate overright of their idly
             caxa pun procm=8*s. Tha Raaac~a cempononta had wt fully
             coatplimd with the DDD Taaily Care Plan policy to identify
             allmmbera      requiring idly    care plan8 cad to l ruuro tb
             adequacy of w8ry Be&or *a family care plan.       Ia addition,
             except for thm Air Forcm Reaorve, the Ro~erve colponente
             had not pAaced cmnd       eqhaaia on moaitoriag idly       care
             pluu.      Zf fanlly care pl8n i~dmqurci~a continue to exist,
             roadinasa and deploy6bUity could be affected      during   a full
             nobiliration.

             ADDITIQUL      n-ACTS.

                  Family are plan iaauoa did not prevent say Asmy
             Reserve moldier from deploying. Furtharmora,    reviewa of
             unit fraily c6re plum bava been ongoing. USMC Inspector
             Gumtal (ICI general laspoctiona hava assamsod faaily cuc
             plans aa part of tbir aobilirationchukli6t.        The
             &eckliatr rocommn&d      in Commod Oversight of F6mily C8r8
             Plans, haa bean publieJaod. Oait c-r6        aad ataff
             officers fraar thr b6ttalion level aad higher &ma been
             u6ing the publi6hrd checklist. Subordinate   c-nd
             Internal Raview (IN officoa 6160 have reviewed family    care
             pleas during the lut   three fiscal yeera (I'm).


             A-l.   We recommend      that the Comender, U.S. Army Reserve
             Comuaadr Dim&or,         Army National Guard; and Director, hir
             N6tion61    Guard:

                  a.  Eat&dish procatiroa  to identify all PIlakra
             meeting t&e criteria for 8 family care plan, masure




                                                         34
                                                                 Department             of the Army Comments




complmtion of 8                                             afulUm8rm 8nnu81 review
8nd v8lidation of math uabrt'a                            Lilly care plan.

     b. Establish   proadurms    requirinq uch unkt to rmport
8nnu8lly to Cound    Hm8dqu8rtmrr   the nuabmr of Mmr8
raquirinq family ato plm8. the numbor of plans that mrt
bminq ~lmtrd,     tha nwbmr   of plutr th8t h8-m bmmn
wlmtmd,     8nd thm n-m+    of family c8re ~181x8 rwimwcd and
V8lid8tmd.

       C.   C8trblish    fUily               C8re        p18n8    88 8 SUbjOCt          Of hrturm
iaini8tr8tiVm       inXpUtiOnS,                   lVAh8tiOnB.          8nd     8UditS     t0
ansurx    eomplianco.

ccxIR#DcaQaNTs.                  Our     rmapOnmm8         arm    kmymd   to the        6pmcific
subp8rmqr8pl8 in rocommnd8tion                            A-l.

         A-1.8.       Concur.        Wm be1i.w   8dOqIA8tm prOCOdUrm8  fO2
thm     idmntificmtion           of 8oldimra   vho 8re required   to complete
family c8re         pl8nr       8lre8dy  exist  in AR 600-20,   Churqm 2,
&tad       1 Apr Compli8ncm with theam procmdurmr is the
                     92.
rm8pOnxibillty    lwry  caundmr
                          Of      and fir&  8mrqmant.
Uonitorinq mnd lnforcmmmnt of f8mily cue plan8 must remain
8t their level. IO vi11 rmaiad thm of the iaportmce    of
the8a      responrib~lities  dbUing  the my  99 USARC tinmr81
Officor8       IGO) and Coam8a d Sorqm8nt8 MjOr  CCSM) Confmr8ncm.
ti80,      by     30 Jun 99, quidancm will be published requirinq
thm rm~i~           8nd    V8lid8tiOn        Of    fdly          are   pl8ns     during
8nnu81  troininq,              individual         duty     tr8ining       "faaily d&y8,"
8nd ~biliZ8tiOn                lXmrCi8mS.

         A-1.b.       Concur.          on
                           7 an 99, theUSNtC Deputy
caundinq           tanmr81 dirmctmd 8n USMC-widm idly
                                  IDCW                           c8rm
plan r*v1*w. Subordinate cm            r8 t0 th     hUm8t   1mVml
wmrm rmquired to rwiw     8nd Vxlid8to    nmmdmd idly       cue
pl8zu for thmir roldierm.    Ilemults of thm rwlmu        8ro to be
reported by 30 Apr 98.    The report vi11 iacludm tbm
follouinq: tot81 aurkr     of 8Oldierh      n\lrber  of rmquirod
fuily   Car0 pl8nl,          of 8pprovmd
                                 n&r      fmily   care pl&n&
8nd n\aber  of f&ly    care phase peading   mpprov81.     In
addition.  nmw family care plan rehtmd ifold      changes    to
SIDPPRS-USR/CLM umrm madm 8vail8blm to tbo unit level
during Apr 99.    Tboro ch8nqe8   rrl8t8 to tbm following
f irlds:  fIliiy cuo   phn   c0d0, r8mily c8rm ~1~8 dem,
sinqlm p8rmt    indicator, OS?!of rilitrry spousm. mnd
nilit8ry  smrvico of spouse.    ~lmtion     of them* fiolda is
t8rgmtmd  to be input into the systm by 31 Wy        99.    WO will



                                                     2




                                                     35
Department of the Army Comments




         umitor the iafotlution in these fialdm on l continuml
         bmsis instamd 02 the rm comae-ad mnnuml nportlng
         requlrmm-2.

              A-l.c. Concur, The U.S. Army Rmmrrve Ikmdinmmr
        Coclrmd (lL5NUlC)will be directmd, by 30 Sun 98, to uke
        sure  ftily cmrm plmns l re included ia their Coaplimea
        zusmaammnt Progru   (CAP) to mnsure all unit8 91m copapiyisq
        with tmmily cmro plmn roquirmtnmatm. In ldaition, Fmmi1y
        cmrm plmnm wezc dimcummmd l t the Apr 91 US&NC IR
        Professional Developwnt Conforenco   fPDC), lnd will be mdo
        an it- of intmromt for FY 99 IR Plmns. Pinmlly, fmmily
        cmre plmns will ba eonaidared for reportlag mm a nmtmriml
        marugment control ummkamss NW) for ET SO, mnd will be
        incorpormtod into the USARC's Mmnmgement Control Process
         (Wcp) beginning with PY 99.



                     FIGDIIYG   B - Physiul    Fitnems Tostinq




               Exempt for the Aray I!ImtionmlGumrd, the Resarva
        componmnts rovlmd     wore not -tin*    phymicm& Iltneas
        stmndmrdr mad requirnemts.     This occurred becmusm the
        Reserve caPponmnt8 hmd not ldoqumtmly iaplemonted and
        testad   MPbsrs ia accordance with DOD mnd Service
        iappluntinp guidmnce for physical titnems. In addition,
        the &ray L\rs=rn lacked unifera cOLInd mmsim.          k l
        result, Reaervo eoqeonmmtm could not enaura that ml1 their
        ers       could mdequtmly damzmtrate    service-•peclfic
        cmrdio-respirmtory eadurmnce, muscular mtrangth and
        lndurmnco, mnd the ubolo body flexibility aWed       to
        successfully parfoa    rimsion lpmcific duties.

        hDDITIC@lAL PACTS.

              In Sep 93, tha USARC DCG directed mn IG Spmciml
         Inspection of Army Phyz~ical Pitneas Tmrtirrg (APFIT). The
         inspection umm conductmd at USARC amjor subordiaata
         commands and their subordlnmte unit6 from Apr 94 through
         Jun 94. The results of the laspmction required thm USARC
         IG to conduct five follow-up inspections and one goner81
         inspection from Get 96 through Jun 97. In addition.    during



                                         3




                                              36
                                       Department     of the Army Comments




the lest three PY8, subordinate ccmmand IRs else hrvo
r8vieued APPT.



B-l.  Ifm rc-nd         that  the Conandmr.  U.S. Amy Rrsrrv~
Command. pcrfooa      inspections, wrluations, end audits of
its physkcal    fitma     program  to ensure uniform ad
consietent 8ppllcation of physical fitno8e standards.



      Concur.    the importmco   of conducting uaiforr and
consistent AO3T will be mphasized during the Hey 98 USARC
GO and CS?IConfaraaca.      In addition, by 30 Jun SD, the
flsuuIc will be directed    to msko sure A?FT revhws   are
ipcluded in their CAP to mns~te sll unita are properly
ccmplyinq with APR requirawnts.         In 8ddition. APST u&s
discussed  at thm Apr 9) USAIC IR PDC, and will be made en
itam of interest    fox Fy 99 I9 lluxa.    rirmlly, APR will h
conmidored for roportiaq 88 a material aumqmnt        control
wakaess   OlW) for ?Y 99,and will be iacorporatmd     iato the
USARC~s Management Control Process (EP) beqinniaq      FY 99.




                                 37
Department        of the Army Comments




             UGB-ARC-X      (36-Sd)                                      2 1 ArR 1398

             XENOSW4DUX     FOR   IrupectnjrGenu81, Department of Defense,  ATTU:
                                     COL 'Poungquist,400 Army Navy Drive, Arlington,
                                     VA 22202-2804
             SWRJECT: EveluetionUeport on Uondcployable
                                                      ReserveComponent
             Personnel (ProjectNo. 7RB-3007)

             1.   Reierence:         DoD IQ Aeport Pro;ect No. 7RB-3007,21 Feb 98,
             *usjut 8s above.
         2. The Army Yationel suard bar reviewi subject report.       Wm foe1
         that ldoquete policies U     procdures   have bean established to:
         identity 8pplicsble 8embarrr com~lereand v8lid8te Family Care
         Plans, 8nd walu8te/oversee the program.      Ibmvec,  b8sed cm the
         results 02 the report It 8ppmrr     the problemla not the 18ek of
         policle~ 8nd prvcedI~s8, but the l8ck Of ~leX#Y&t8tiOI% of
         policies and procedurss. Tbueforc we will take the following
         l c tion. A re8dineSa ncrormdum    ~131 be sent to the st&tes by
         30 Apr 98 reemph88izizg:
                               muatimplesmntf8mily care plans during
                         Guardmmbers                                    my
         peri        of        8nnus!. tr8iniag, :egLI18X1yscheduled un$t
                           8bsance    for
         trainir.gassemblies, cmergencymobilizationand deployment or
         ocher typas of active duty.

             b. Instructions. procedures 8nd ~ecesrary forms for
         preparing t Feaily Care Plan 8re feud in AR 600-20.

             c. Unit Connuadcrs at a11 levels8rs requird    to report all
         Nondeployablepersonrkel on their qu8rterly Volt Statue Aepvrt Per
         AR 220-1, Unit Stetus Reporting.
             d. Caumanderaare respired to ham currsnt    and complete
         Family Care Plans on tile for each soldier identified durlng
         Phase z planning 02 c>bilitation(Chapter2, FoRSCm Regulation
         500-3-3,RC t'nitCommndsrs              88ndEook.)

              e.  The reoieu of the Family Cue Phns shouldbe an
         kspectable   ares vitoin   tbe OrganLs8tional Inspection Program
         !OIP) and conducted    at least annuallyby the BattalionLevel or
         higher (AR l-201, Aru.yIrspoctlon             Policy.)




                                                       38
                                         Department   of the Army Comments




 NGB-ARC-N
 SUBJECT : Evaluation &port an Nondt~loyableReserve    Component
 Ptrsonetl (ProjectNo. 7RB-3007)

3.   We*-illalso rtccmtnd   chat the sttct senior leadership
consider the need to preparm md mmitor    Family Cart Plans as a
potential auditable LZtt for lnttrratl Review to aucut within the
nut 12 months.
.4 -The Pot: for   this action is Ms. Pat Condoa, NW-ARC-M,
703-607-7704.

FOR TIE DIRECTOR, ilRHYNATIOWM, Guuu):




                                     LituttnantGolontl, 'is
                                     Chief, Comptto:ltr Division




                                    2




                                    39
Department of the Navy Comments




    HRHORANXlH POR       DIRRCTOR, READINESS           AWD   LCGISTICS   SUPPORT
                           DIRRCZQRATR

    SUBJECT:        Evaluation Report of Non-deployable             Reserve Component
                    Personnel   (Project    No.   7RR-3007)      - INPORMTION
                    lIBnOR&NUlN

          Tha DapartueDt  of the Navy has reviewed the draft Rvaluation
    Report on Non-deployable   Reserve Component   Personnel and provides
    the following   conen ta on each recommend ation affeoting  tbe
    Rarine Corps Reserve.

            a.    Paragraph    A.4.a.    Concur.    Unit commanders   will
    conduct   intervim      vith all unit seabars to l uaure identification
    of mambara wting        the criteria    ad    completion  of family care
    plaus.    The Rajor Subordihate       Commands    (MSC) of the Rarine Forces
    Reserve    (RARPORRRS)    (4th Rarine Division,      4th Marine Aircraft
    Wing, 4th Force Sarvice Support Group, and the Rarine Corps
    RoseLye   Support Conahd),        and Force units attached     to the
    HARPORRRS,    have been diracted      to compile and monitor     electronic
    rosters   of all members potentially         in need of family care plans.
    Interviews    to be coupleted      by October 1, 1998.

            b.   Paragraph  A.4.b.    Concur.   The Rarihe Corps Total
    Forca System currently     contains   data lleaeuts that specifically
    identify,   by virtue of service apouae data or dependent      data,
    Elrcpotentially        in need of family care plans.      On an auuual
              oumauds  are required   to audit those files for accuracy
    and ckpliance     vith current directives.      Efforts vi11 be reueved
    to ensure the completeness      of these audits and corrective   actions
    talsen in the eveut of discrepancies.       Audits to be completed   by
    October   1, 1998.

                 Paragraph   A.4.c.  Concur.   Commencing   January   1, 1999,
    c!Ow&     RRRS vi11 iapluent    the recosaended   reporting   proceam.
    The first   repoti    from R8C'a are due to that Headquarters      on
    March 31, 1999.

            d.  Paragraph   A.4.d.   Concur.    The R-Ret vaa completed   in
    1996.   The COMARPORRRS     will ensure that a database    supporting
    family care plans is established      on the R-Net,   vith an
    anticipated  completion    and dissemination   of the template   by July
    1, 1998.

            l   .   Paragraph   A.4.e.      Concur.      The    necessity to inspect,
    evaluate,       and audit   to ensure    coupliance        vith Marine corps




                                                  40
                                                    Department     of the Navy Comments




Order  1740.13A, Family  Care Plans, ha8 been incorporated    into                the
Rarine Forces Ruerve    irmpector  order.   Since Uarch 19, 1998,
Unit in8pection8  include evaluation    of family care plans.

           f.     Paraqraph  8.3  ConcUr.  Rffective      July 1, 1998, all
Rarine8,        regardlu8   of aqe, vi11 be repuired      to take an annual
phy8iCal        fitUe88 te8t.

      Ry implementing   unaquent     control8   over family care plans
a8 addre88ed   by the Ilupector   General98    re comundation8,      the
RARPORRRS  vi11 be in coRpliance     vith DoD Instruction       1342.19,
lFamily Care Plau.'      A November    3, 1997, change to Rarine Corps
Order 6100.3J requiru     all Warinea,    regardless    of age, to take an
aRUUa1 phy8iu1    fitUe88 t88t.     RigOroU8   Banaquent     Control8    ara
in place to en8~re co~pliahce.

      Ry point-of-contact        is LtCol    Rark   Menhefer,    who   can   be
reached  at 693-0241.



                                            RRRNARDROSTRRR
                                            A88i8tant   Secretary  of the Navy
                                            (Ranpover   and Reserve Affairs)
Air National Guard Comments


                       DEPAWWENTS     OF THE ARMY AND THE AIR FORCE
                                     NAnoNALQUAM) BmEAu
                                       zsw ARWPENlAGad
                                    WAswmloN. D.C. zo¶ls2sm
                                                                              /R   28 is!98


     MEh4ORANDUM FOR INSPECTOR GENERAL. DEPARTMENT OF DEFENSE

     SUBJECT: haqanaa       Canmen to Evabtion           Repott on Nondeployable Reserve
     Component Pasotme I (Project No. 7RE3007)

            The following rrrrrrmoQllclltsxmmcms are ptwidcd in twponse 10 Physical
     Fibxsa Testing in the Air National OIlrrd (ANG).

             ThtANGdoesllot~llllow~hcF~accpolicympbydalfiDcrrtcrtinOkuurt
     thcAirFotceSurgwn-              +xmarcdwithtbeANG-40.501,AirNItionrl
     thud Annual Fitness Progma~ Prior to this public~ion, the ANG pilot-tested tbc Cyck
     ErgomcttyTestat3ofottr88units.      Evaluationaflct2ywrs&taminedtbccycle
     ctgotneaytestingwasnotfersibkforourANGtncmbcrs.          Theproonmistoorcsowcc
     intuuiw. RewItsofourevalWhnWCrcbrielsdtotbSwgeonGcaalmdh~

           AirForcelKtiWdutydoesaot~itsmankrsforspecificm~a~
     awlumncc, aad whole body flexiility as squitcd in DODD 1308.1. The Air Force
     SurgeonGenaalhasdirrotcdhisMedicalOperationsAgencytitodevise8Wt
     (August 1998) for these tn-.

              InIhe~y~,r~~forcc~~podudteMlmettodiscllum
     appropriatclitnesstestforthetesuvecom~             Ammmdacionwasmadeandthe
     AirForceSutgconGmal~rpproved(Uvch1998)dKRodcportl.Omileswrlkpilot
     tcst,toinchxkoncactivcduty,gwd,andrcscrve        unit. A proposd for deployment of the
     pibttcstisscbedukdtotnwpirciaMayf998.

             I wbokhatauy   support the                                             his
     willingncs to c4MLsider
                           apporii




                                                Major General, USAF
                                                Director, Air National G




                                               43
Air National Guard Comments




                      DEPARTMENTS OF THE ARMY AND THE AIR FORCE
                                   nnionu-mwuu




       MEMORANDUM FOR DoD/lG (I&. Richard Brown)


       FROM: NGBlCF

       SUBJECT:     Nondeployable Reserve Component Personnel

               We have reviewed the suggestions of the DoD IG. and concluded that
       sufficient guidance ia in place to ensure compliance with DODInstruction 1342.19
       and AFI 36-2908. Enough oversight ia currently in place at the unit level to ensure
       all applicable members complete a family care plan and to ensure adequate review
       and validation of the plans through the responsibilities listed in AFI 36-2968.

              The errors found by the DoD IG team at eight Air National Guard units are
       compliance items and are not due to a lack of policy or guidance. To address this
       compliance issue, we are adding the Dependent Care Program as a special interest
       item to inspections and audits. Additionally, we are now requiring Air National
       Guard units to submit an annual -Family Care Plan Report” to the Headquarters
       Air National Guard Readiness Center Personnel Directorate. This report will
       include (1) the number of members requiring family care plans. (21 the number of
       plans that are being completed, (3) the number ofplans that have been completed,
       and (4) the number offamily care plans reviewed and validated.

              This command interest
       these compliance issues. Pain
       Email mentingn@ang.af.mil.




                                               ajor General, USAF
                                             Director, Air National G




                                                 44
Evaluation Team Members

This reportwas prepared by the Readiness and Logistics Support Directorate, Office of the
Assistant Impector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
Richard A. Brown
Consolation L. Loflin
Barry M. Johnson
Stephen G. Schaefer
Beverly L. Cornish
